                                                                          7                                                           -        -=   -
                                       \                                             --
-                                      I   I                                              1
                                                                                                          II


                                                                                                          II
                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL                        II

                                                         OFFICE OF INVESTIGATIONS
                                                                                                               I


                                                 CLOSEOUT MEMORANDUM

    Case Number: 1-03060022                                                                         Page 1,;of1
                                                                                                                1


                                                                                                                   I/


             OIG was contacted about mismanagement of grant funds on an NSF award. The complainant
             stated that the university was a sub-awardee on the grand and did not receive full payment'bn a
             sub-contract with the NSF grantee. The complainant also stated that when the grantee was
             contacted about the past due amount, they were told the money was "all gone."

            Our office sent a letter to the grantee and requested all financial information and back up
            documentation (including sub-awards) associated with the grant.

            Our office received an email fiom the principal investigator informing us the debt to the sub
            awardee had been paid in full. Our office later received correspondence stating the sub-awardee
            had been paid in full. OIG received the account ledgers fiom principal investigator.
                                                                                                                        11


            After review of the documentation received and the faxed copy of the check paid to the subr
            awardee, our office is satisfied that there is no evidence to substantiate the initial allegation.

             Accordingly, this case is closed.                                                                           I>




                                                                                                                             I


                                                                                                                             I


                 I




                 I



                     I

                                                                                                                                 1




                                                                                                                                 I




                         I

                         I                                                                                                           10

                         I

                                                                                                                                      I




                             I

                                                                                                                                          11

    NSF OIG Fom 2 (1 1/02)                                                                                                                I!
